<html>
<title> - [H.A.S.C. No. 114-57] EXAMINING DEPARTMENT OF DEFENSE SECURITY COOPERATION: WHEN IT WORKS AND WHEN IT DOESN'T</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]






 
                         [H.A.S.C. No. 114-57]

                    EXAMINING DEPARTMENT OF DEFENSE

        SECURITY COOPERATION: WHEN IT WORKS AND WHEN IT DOESN'T

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            OCTOBER 21, 2015





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

















                                   ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

97-491                         WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001


                                     













                                     
                      COMMITTEE ON ARMED SERVICES
                    One Hundred Fourteenth Congress

             WILLIAM M. ``MAC'' THORNBERRY, Texas, Chairman

WALTER B. JONES, North Carolina      ADAM SMITH, Washington
J. RANDY FORBES, Virginia            LORETTA SANCHEZ, California
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           SUSAN A. DAVIS, California
FRANK A. LoBIONDO, New Jersey        JAMES R. LANGEVIN, Rhode Island
ROB BISHOP, Utah                     RICK LARSEN, Washington
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN KLINE, Minnesota                MADELEINE Z. BORDALLO, Guam
MIKE ROGERS, Alabama                 JOE COURTNEY, Connecticut
TRENT FRANKS, Arizona                NIKI TSONGAS, Massachusetts
BILL SHUSTER, Pennsylvania           JOHN GARAMENDI, California
K. MICHAEL CONAWAY, Texas            HENRY C. ``HANK'' JOHNSON, Jr., 
DOUG LAMBORN, Colorado                   Georgia
ROBERT J. WITTMAN, Virginia          JACKIE SPEIER, California
DUNCAN HUNTER, California            JOAQUIN CASTRO, Texas
JOHN FLEMING, Louisiana              TAMMY DUCKWORTH, Illinois
MIKE COFFMAN, Colorado               SCOTT H. PETERS, California
CHRISTOPHER P. GIBSON, New York      MARC A. VEASEY, Texas
VICKY HARTZLER, Missouri             TULSI GABBARD, Hawaii
JOSEPH J. HECK, Nevada               TIMOTHY J. WALZ, Minnesota
AUSTIN SCOTT, Georgia                BETO O'ROURKE, Texas
MO BROOKS, Alabama                   DONALD NORCROSS, New Jersey
RICHARD B. NUGENT, Florida           RUBEN GALLEGO, Arizona
PAUL COOK, California                MARK TAKAI, Hawaii
JIM BRIDENSTINE, Oklahoma            GWEN GRAHAM, Florida
BRAD R. WENSTRUP, Ohio               BRAD ASHFORD, Nebraska
JACKIE WALORSKI, Indiana             SETH MOULTON, Massachusetts
BRADLEY BYRNE, Alabama               PETE AGUILAR, California
SAM GRAVES, Missouri
RYAN K. ZINKE, Montana
ELISE M. STEFANIK, New York
MARTHA McSALLY, Arizona
STEPHEN KNIGHT, California
THOMAS MacARTHUR, New Jersey
STEVE RUSSELL, Oklahoma

                  Robert L. Simmons II, Staff Director
               Mark Morehouse, Professional Staff Member
                 Katy Quinn, Professional Staff Member
                         Britton Burkett, Clerk
                            C O N T E N T S

                              ----------                              
                                                                   Page

              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Smith, Hon. Adam, a Representative from Washington, Ranking 
  Member, Committee on Armed Services............................     2
Wilson, Hon. Joe, a Representative from South Carolina, Committee 
  on Armed Services..............................................     1

                               WITNESSES

Fraser, Gen Douglas, USAF (Ret.), Principal, Doug Fraser LLC; 
  Former SOUTHCOM Commander, 2009-2012; and Former PACOM Deputy 
  Commander, 2008-2009...........................................     7
Paul, Christopher, Ph.D., Senior Social Scientist, RAND 
  Corporation....................................................     6
Reveron, Derek, Ph.D., Professor of National Security Affairs, 
  U.S. Naval War College.........................................     4

                                APPENDIX

Prepared Statements:

    Fraser, Gen Douglas..........................................    77
    Paul, Christopher............................................    52
    Reveron, Derek...............................................    43
    Smith, Hon. Adam.............................................    41

Documents Submitted for the Record:

    [There were no Documents submitted.]

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    [There were no Questions submitted post hearing.]
      

EXAMINING DEPARTMENT OF DEFENSE SECURITY COOPERATION: WHEN IT WORKS AND 
                            WHEN IT DOESN'T

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                       Washington, DC, Wednesday, October 21, 2015.
    The committee met, pursuant to call, at 10:20 a.m., in room 
2118, Rayburn House Office Building, Hon. William M. ``Mac'' 
Thornberry (chairman of the committee) presiding.

  OPENING STATEMENT OF HON. JOE WILSON, A REPRESENTATIVE FROM 
          SOUTH CAROLINA, COMMITTEE ON ARMED SERVICES

    Mr. Wilson [presiding]. Ladies and gentlemen, I would like 
to call this meeting of the House Armed Services Committee to 
order.
    Chairman Thornberry is on his way. He has been delayed, but 
he will be here any moment.
    Additionally, Mr. Smith, we will be working with Ranking 
Member Susan Davis of California.
    But we would like to thank everyone for being here today. 
The hearing today is certainly very important. And the issues 
that are being discussed are critically important. And working 
with our allies to increase global security is an important 
mission for the U.S. military, rightfully so, as we have never 
been faced with a more complex or complicated array of threats 
to America's security.
    In addition, tight defense budgets put additional pressure 
on many of the accounts from which security assistance is 
drawn. For these reasons and others, the committee has 
dedicated this week for oversight of the Department of Defense 
[DOD] security cooperation activities, programs, and 
authorities. This week, the committee's activities include a 
background briefing by Congressional Research Service, this 
opening hearing with outside witnesses, and a classified 
briefing with officials from both DOD and Department of State 
on the status of the administration's efforts.
    There is general agreement that security cooperation should 
be an important component of our national security strategy. It 
creates more capable fighting partners and builds relationships 
that promote U.S. security interests.
    But we need to remember what it means, not as an ends. We 
have seen cases where security cooperation has been successful, 
for example, countering narcotics traffickers in the nation of 
Colombia or training Eastern European forces before they deploy 
to Afghanistan. We have also seen failures, with the Iraq and 
Syria train-and-equip programs the most notable, sadly, recent 
examples.
    Through this weeklong review of security cooperation 
efforts, we hope to ask and answer a number of critical 
questions: What makes a program successful? And what can we 
learn from the failures? During today's hearing, we will look 
into our distinguished panel of experts to help us analyze the 
lessons learned, what works and what doesn't, so that the tool 
of security cooperation is used in the right way to ensure that 
future programs are set up for success.
    Helping others develop the capability to do things that 
need to be done makes sense. And part of the reason DOD is 
doing more of it is because they actually get it done and, 
particularly in the case of counterterrorism, get it done in a 
timely way. Security cooperation week combined with the 
language of the National Defense Authorization Act [NDAA] 
requiring the DOD to submit a strategic framework for building 
partnership capacity to Congress are the first steps by the 
committee as part of a long-term effort to review the use and 
effectiveness of security cooperation programs. In fact, this 
year, the National Defense Authorization Act includes important 
provisions to help improve our security cooperation efforts, 
such as the requirement for the security cooperation framework 
and a couple of new authorities.
    I would like to make the final point about working with 
friends and allies beyond building partnership capacity and 
other security cooperation. The House and Senate have sent the 
President a National Defense Authorization Act that passed both 
Chambers with strong bipartisan majorities. The legislation is 
a result of months of collaboration across the aisle, people 
working together to support our troops, making critical reforms 
to acquisition and military retirement to ensure the country is 
more secure. Wouldn't it send a strong signal to the country, 
to our partners and friends, and to the rest of the world that 
the U.S. Congress and our President are pulling in the same 
direction when it comes to global security.
    With that said, I turn to our ranking member, who has 
arrived, for any opening comments he would like to make. Mr. 
Smith.

STATEMENT OF HON. ADAM SMITH, A REPRESENTATIVE FROM WASHINGTON, 
          RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Smith. Thank you, Mr. Chairman. And I appreciate this 
hearing. I think this is an incredibly important topic, 
building partner capacity, because there are certain realities 
in the world right now. And the U.S. military is not going to 
be able to go anyplace in the world and fix problems on its 
own. We need allies. We need friends. We need partners in order 
to multiply, be a force multiplier basically, to enable us to 
be successful in parts of the world where we have unquestioned 
national security interests but where the U.S. military simply 
showing up is not necessarily going to fix the problem.
    So I think it is an incredibly important part of what we 
do. And it hasn't always been successful. A lot of folks have 
criticized some of those failures, some of those areas where it 
didn't work. And my great fear is that will be used as an 
excuse to say that we shouldn't do this when we cannot succeed 
in the current national security environment unless we build 
partner capacity, unless we use allies to help us achieve our 
national security goals. It is critically important. And a 
couple areas where I think we have been very successful at 
this: in the Horn of Africa, in dealing with Somalia and Al 
Shabaab and AQAP [Al Qaeda in the Arabian Peninsula] with a 
very, very light U.S. footprint. The exact number of U.S. 
troops involved is classified, but it is triple digits, not 
quadruplefold. And the reason we have been successful there is 
we have worked with Ethiopia, we have worked with Kenya, we 
have worked with Uganda, we have worked with Burundi. We have 
helped build their capacity, and we have been able to contain 
the threat. Now, it is not, you know, 100 percent a peaceful, 
rosy scenario. But it certainly hasn't spun out of control. And 
we have had no attacks against U.S., Western targets come out 
of Al Shabaab and Somalia because we built that partner 
capacity and because we were able to successfully partner. And 
I think that is just critically important.
    Also in the Philippines, the relatively light footprint, we 
have worked with the Philippine Government to contain 
insurgencies in the southern islands in the Philippines. Again, 
not a 100 percent success, there are still challenges down 
there. But we have built the capacity of the Filipino military 
to deal with that problem rather than sending in tens of 
thousands of U.S. troops. And I think that is going to be the 
model going forward: finding partners that we can work with to 
contain these threats.
    We have that challenge now in northern Africa, in Mali and 
elsewhere, finding those partners. But, in that case, we have 
worked to some degree with some of our European partners like 
the French who have better connections, better relationships 
down there. We still have a long way to go, obviously, with the 
chaos coming out of Libya. But I think building that partner 
capacity and finding allies who can help us is a critical piece 
of it.
    The final thing that I would add is that partner capacity 
sort of includes the Department of Defense building its partner 
capacity with our other two elements of national security, 
diplomacy and development. That is areas where I think we can 
better coordinate. I have been to dozens of countries where 
this has been tried. In some places, it works. And in some 
places, it doesn't. And I think one of the big factors is how 
well the State Department gets along with the Department of 
Defense in those areas. In some cases, you have ambassadors who 
have great partnerships with the Department of Defense. In 
other cases, they are going at each other all the time and 
always in disagreement about how to proceed and who exactly is 
in charge. Building up the level of cooperation between the 
State Department and the Department of Defense is very 
important.
    And I would also say that building up development 
capacity--when I was in the Philippines, there was a great 
project, there we had an ambassador who worked very closely 
with our local special operations commander at the time and 
also worked very well with USAID [U.S. Agency for International 
Development]--went to one of the southern islands when they 
were cutting the ribbon on a new school that they had built. 
And that partnership on our side between defense, development, 
and diplomacy is the building block to successfully build the 
partnerships with the local countries where we are working to 
build their capacity. So that has to be part of it as well.
    With that, I look forward to testimony and questions from 
the members.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Smith can be found in the 
Appendix on page 41.]
    Mr. Wilson. Thank you, Mr. Smith.
    And we now want to welcome our witnesses for the purpose of 
this hearing, which is ``Examining Department of Defense 
Security Cooperation: When It Works and When It Doesn't.'' We 
are very grateful to have three distinguished witnesses with us 
today: Dr. Derek Reveron, Ph.D., professor of national security 
affairs at the U.S. Naval War College; Dr. Christopher Paul, 
who is, again, a Ph.D., a senior special scientist at the RAND 
Corporation; and also General Douglas Fraser, U.S. Air Force, 
retired, principal of the Douglas Fraser LLC, and former 
SOUTHCOM [United States Southern Command] commander and former 
PACOM [United States Pacific Command] deputy commander.
    Each of you, we are really grateful for your participation 
today. And we will begin with Dr. Reveron, and then we will 
proceed down the dais.

   STATEMENT OF DEREK REVERON, PH.D., PROFESSOR OF NATIONAL 
            SECURITY AFFAIRS, U.S. NAVAL WAR COLLEGE

    Dr. Reveron. Thank you very much and good morning. It is an 
honor to speak to the committee today about security 
cooperation. The ideas are my own and largely reflect my work 
and my book, ``Exporting Security.''
    Security cooperation is not an abstract concept to me but 
something I participated in firsthand as an academic and as a 
naval officer. My study began in the late 1990s, when I 
observed military diplomacy firsthand, and continued through 
the last decade working with security assistance officers 
around the world to include dozens of militaries, Iraq and 
Afghanistan included. Additionally, my students at the Naval 
War College have been very helpful in my thinking on this.
    During this time, there has been no shortage of foreign 
policy crises. In an effort to reach for peace, the U.S. seeks 
to prevent conflict by helping regimes through security 
cooperation, which includes all Department of Defense 
interactions with foreign defense establishments. By sending 
weapons, trainers, and advisers, the U.S. helps other countries 
meet their national security that is challenged by intrastate, 
transnational, and regional challengers. Security cooperation 
is much bigger than building partnership capacity in combat 
zones. It seeks to empower U.S. partners rather than address 
security challenges through American force alone. Since 
coalition operations are a norm, security cooperation also 
ensures partners are interoperable with U.S. forces. For 
example, in Afghanistan, we operated with 50 partners who 
brought capabilities that we could not, such as police 
training. In Bahrain, a U.S. officer today directs 3 naval task 
forces composed of 30 partners who collectively protect vital 
trade routes. And in Key West, Joint Interagency Task Force 
South serves as a fusion center supporting international 
efforts to eliminate illicit trafficking into Caribbean and 
Latin America.
    Security cooperation enables these coalitions to work. The 
programs ensure partners have access to the U.S. defense 
industrial base. And U.S. sponsored military exercises promote 
interoperability. Known as the indirect approach, the U.S. 
helps countries fill security deficits that exist when a 
country cannot independently protect its own national security. 
American generosity helps explain this, but U.S. national 
security benefits too. For example, by providing radars and 
surveillance technology, Central American countries can control 
their airspace and can interdict drug-filled planes bound for 
the United States. By providing logistic support, Pakistan can 
lead a coalition promoting maritime security in the Indian 
Ocean. And by selling Aegis destroyers, Japan can counter North 
Korean missiles and provide early warning of missile threats to 
the United States.
    The rationale for security cooperation has been based on 
the assumption that instability breeds chaos, which would make 
it more likely that the U.S. or the international community 
would face pressure in the future to intervene. Given America's 
global foreign policy, many countries have large expectations 
for assistance from the United States. But the U.S. also 
derives benefits from security cooperation. Among these are 
obtaining base access as a quid pro quo; augmenting U.S. force 
structure by providing logistics and intelligence support to 
coalition partners in the Middle East; promoting a favorable 
balance of power by selling weapons systems and training 
programs to Gulf Cooperation Council countries to balance Iran; 
harmonizing areas of cooperation by working with Japan and 
Israel on missile defense; promoting self-defense through the 
Georgia Train and Equip Program; reinforcing sovereignty, like 
programs such as the Merida Initiative with Mexico; and 
supporting the U.S. industrial base and creating interoperable 
air forces through the F-35 program.
    At times, security cooperation can be limitless, 
dissatisfying, and futile. Further, risks abound. First, the 
non-exclusive nature of these activities will produce more 
failures than successes, which negatively impacts confidence in 
security cooperation as a tool.
    Second, the personnel system is not producing sufficient 
talent to support these missions. American forces no longer 
operate in isolation and need an appreciation of the 
historical, cultural, and political context of where they 
operate.
    Third, there is a tendency to over-rely on partners, 
thinking they can accomplish U.S. objectives when they either 
lack the political motivation or the skills to do so. Without 
indigenous political legitimacy, programs can only have a 
marginal impact on a country's security and stability.
    Finally, other countries will rely on the U.S. to subsidize 
their own defense budgets, creating a free rider problem.
    Given the disappointments in Syria, Iraq, and Afghanistan, 
there is the potential for the value of security cooperation to 
be ignored. But these programs are not confined to combat zones 
alone. When thinking about security cooperation, we should look 
at how international partners contribute to coalition 
operations, peacekeeping, and global security. U.S. budgetary 
declines will likely reinforce the importance of security 
cooperation, as the U.S. will need more partners and allies to 
augment its own defense capacities.
    I hope this hearing can show those inside and outside of 
the government of the challenges of the by, with, and through 
partners approach and why security cooperation is an important 
pillar of U.S. defense strategy. Thank you.
    [The prepared statement of Dr. Reveron can be found in the 
Appendix on page 43.]
    Mr. Wilson. Thank you, Professor Reveron.
    We now proceed to Dr. Paul.

STATEMENT OF CHRISTOPHER PAUL, PH.D., SENIOR SOCIAL SCIENTIST, 
                        RAND CORPORATION

    Dr. Paul. Thank you for inviting me here to testify today. 
My remarks today will draw on research on security cooperation 
that I have led at RAND over the last several years. In one 
study, we used detailed case studies of 29 countries over 20 
years. In a follow-on study, we did deep-dive case studies of 
four countries chosen specifically because they highlighted the 
range of possible challenges.
    The research has found several factors that are critical 
contributors in security cooperation. I will review them.
    First, matching matters. Efforts to build partner capacity 
are most effective when what is being offered aligns well with 
partner nations' forces' baseline capabilities and with their 
ability to absorb training and technology.
    Second, relationships matter, and they can take time to 
establish. Relationships contribute a necessary level of trust 
and understanding. And relationships also include the alignment 
of objectives between the United States and the partner.
    Third, context matters. Certain characteristics or features 
of partners improve their prospects for success. Specifically, 
partners with relatively robust governance and relatively 
strong economies have historically had more success in this 
area. Having a functioning ministry of defense and having 
sufficient resources and willingness to invest in sustainment 
are also helpful.
    Fourth, consistency and sustainment are key. By 
``sustainment,'' I mean the provision of logistics and 
personnel services necessary to keep something going. That 
includes maintenance; spare and replacement parts; and some 
kind of plans for manning and personnel sustainment. In 
historical cases in which the United States provided consistent 
funding and effort over several years and some kind of 
sustainment effort was in place, be it provided by the U.S. or 
the partner, capacity was much more likely to be built and 
maintained.
    While our research highlighted several elements conducive 
to security cooperation success, we have also highlighted 
various challenges that can reduce the prospect for success. I 
will list some of them. First among them is partner 
willingness. One of the findings of our research is that you 
can't want it more than they do. Lack of willingness can 
disrupt security cooperation at many different levels, any of 
which can result in delay, diminished success, or outright 
failure. Examples include partners who are unwilling to 
participate in security cooperation activities, partners 
willing to participate but unwilling to focus their efforts in 
areas of interest to the United States, and partners unwilling 
to use the capacity that has been built for the purpose that it 
was intended.
    We found that many of the challenges to security 
cooperation success stem from shortcomings in U.S. practices, 
specifically that U.S. funds and delivers security cooperation 
inconsistently and that decreases effectiveness. Inadequate 
sustainment planning hurts security cooperation effectiveness 
too. As noted, unless they are sustained, forces and 
capabilities rapidly atrophy. Similarly, a lack of flexibility 
in security cooperation is a constraint on effectiveness. The 
administrative requirements lack needed flexibility. And these 
last three problems stem, in part, from some weaknesses in the 
legislative authorities.
    While the patchwork of authorities available to fund and 
support security cooperation enable a wide range of activities, 
they rarely support an activity for more than a year or two, 
resulting in uncertainty about continuation. They also leave 
insufficient room for flexibility.
    To support progress in this area, I will highlight five 
recommendations.
    First, reform legislative authorities can improve 
flexibility and simplify procedures.
    Second, revise or add new authorities to support a wider 
range of activities over longer periods of time and sustain 
them. This may entail new needed authorities, specifically to 
add a sustainment tail to existing programs and authorities.
    Third, consider whether partners have the attributes or 
characteristics that are associated with effective security 
cooperation. Use the results of that consideration to manage 
expectations accordingly.
    Fourth, regardless of the partner or context, review how 
well security cooperation goals and activities correspond with 
what the partner wants or needs and what that partner is 
capable of using and absorbing. As we have noted elsewhere, 
security cooperation must find the right ladder, find the right 
wrung, when aligning activities for partners.
    Fifth and finally, emphasize sustainments when reviewing 
security cooperation programs and ask whether planners have 
identified means at the outset for the sustainment and 
maintenance of any capabilities to be built. Thank you.
    [The prepared statement of Dr. Paul can be found in the 
Appendix on page 52.]
    Mr. Wilson. Thank you very much, Dr. Paul.
    We now proceed to General Fraser.

 STATEMENT OF GEN DOUGLAS FRASER, USAF (RET.), PRINCIPAL, DOUG 
 FRASER LLC; FORMER SOUTHCOM COMMANDER, 2009-2012; AND FORMER 
               PACOM DEPUTY COMMANDER, 2008-2009

    General Fraser. Mr. Chairman, Ranking Member Smith, and 
members of the committee, it has been over 3 years since I last 
had the opportunity to appear before you. I am honored to be 
here again--this time out of uniform--to share my perspective 
on the value of security cooperation programs and what they 
provide the Department of Defense and our Nation.
    It is also a pleasure for me to share this table with such 
two distinguished scholars in Professor Reveron and Dr. Paul.
    My comments today are based on my experience in planning 
and executing security cooperation programs in two separate 
geographic combatant commands, U.S. Pacific Command and the 
United States Southern Command. According to the U.S. National 
Security Strategy, maintaining the security, confidence, and 
reliabilities of our allies is one of the key national security 
interests of the United States. Department of Defense security 
cooperation programs provide the tools that enable the services 
to support this national security interest. Increasingly, 
international security threats require a coalition of nations 
to counter and defeat them. To this end, the Armed Forces of 
the United States routinely trains with partner nations to be 
ready to form and fight as coalition when called. Department of 
Defense cooperation programs enable this training.
    Therefore, Department of Defense security programs provide 
three valuable contributions to the security of the United 
States. First, they build important relationships between the 
members of the Armed Forces of the U.S. and our partner nations 
which in turn enhances their capability to form and fight as 
the coalition in times of crisis. In conjunction with the 
Department of State's security assistance programs, security 
cooperation programs help build the capacity of partner nation 
armed forces to maintain security within their borders. And, 
third, these programs grow the professional understanding of 
partner militaries on the importance of adhering to 
international standards of conduct, to include respect for 
human rights, the rule of law, and the role of elected civilian 
authorities. On the flip side, I often think we think that 
security cooperation programs can accomplish more than they are 
designed to do.
    Therefore, let me mention what I think security cooperation 
programs cannot do. First, they cannot prevent political change 
in the nation. Security cooperation programs encourage the 
armed forces of our partner nations to support the democratic 
process and defend the rights of their citizens to decide their 
political future. In maintaining these standards, political 
change can happen that does not support U.S. interests. And, 
second, security cooperation programs will not significantly 
reduce the breeding grounds of conflict, poverty, income 
inequality, or poor social infrastructure.
    Mr. Chairman, while this hearing is focused on security 
cooperation, because the responsibility for helping partner 
militaries resides at both Defense and State, I think it is 
important to acknowledge the close relationship that exists 
between the Department of Defense security cooperation programs 
and Department of State security assistance programs. The 
training and exercise programs conducted under security 
cooperation mesh closely with the education and equipping 
programs conducted through security assistance programs. And in 
my experience in working in two combatant commands, the 
relationships, as Congressman Smith said, between the 
Department of State and the Department of Defense is very close 
and really works closely to manage and maintain those 
capabilities. By supporting each other, these programs actually 
increase the success for both.
    Finally, security cooperation programs are important for 
the defense of the United States. We live in a globalized 
world. The United States will increasingly rely on our partners 
to help maintain peace and security around the world. As I said 
earlier, security cooperation programs play a key role in 
enabling the U.S. and our partners to train and fight together. 
I am concerned that declining budgets will have a 
disproportionate impact on these programs, cutting them to a 
higher degree than other defense programs and thereby reducing 
their effectiveness. I thank you again for the opportunity to 
appear before you. I look forward to your questions.
    [The prepared statement of General Fraser can be found in 
the Appendix on page 77.]
    The Chairman [presiding]. Let me thank you all for being 
here. And I apologize for being a little late. But I very much 
appreciate testimony.
    I want to yield my 5 minutes to the gentleman from South 
Carolina, who I appreciate filling in for me.
    Mr. Wilson. Thank you very much, Mr. Chairman. And thank 
each of you for being here. And I appreciate--there was a 
reference to Colombia. And people only hear really the 
negative. But Plan Colombia has been a success. I am really 
grateful that I have had the opportunity to serve, along with 
my wife, as the co-chair of the Partners of the Americas 
Program, an association of our State, South Carolina, with 
Colombia. So I have had the opportunity to visit the country, 
an extraordinary country of 40 million people.
    Also two of my sons actually were exchange students at a 
high school in Cali. And then we have had students come and 
live with us as exchange students. And we have seen the 
transition from a circumstance of narcoterrorists controlling 
extensive areas of the country and thousands of lives being 
lost, to Colombian families being protected. I wish more people 
in the United States knew of the success of the cooperation 
between the United States and the people of Colombia.
    With that in mind, for each of you, what factors should we 
use to evaluate how well security cooperation activities are 
having with their intended effects? Beginning with Dr. Reveron. 
Professor.
    Dr. Reveron. Thank you, sir. I think as we start thinking 
about success, just to reiterate what my colleague said, first 
is, the alignment of national interest is essential. And, in 
your case, that we highlight Colombia, I might add a couple of 
points and then certainly defer to General Fraser.
    First, I thought what Congress did was limit the number of 
uniformed personnel that could be inside Colombia. I think 
initially it was 400 and then increased to 800. I think that 
had a very positive effect. One, it really sent the message to 
the Colombians that it is their fight, and we are here to help 
in terms of enable through planning, logistics, and then some 
critical missing capabilities, such as rotary wing.
    Second, related to that, is really the absorption capacity, 
how well a partner can absorb U.S. aid. Sometimes we tend to 
treat other militaries as equal to our own. And I think in a 
professional setting, that, of course, is the right way to 
approach it. But when we start looking at training and 
absorption capacity, we sometimes get the standard wrong. So as 
I think about success and nonsuccess, it is really, I ask the 
question, to what standard should we be training partners? To 
the U.S. standard? To the NATO [North Atlantic Treaty 
Organization] standard? Or to some other standard?
    And, finally, in terms of success, I think, these are U.S. 
Government programs. And in my own experience, I find they work 
best when they are coordinated at the U.S. Embassy level. And 
my favorite quote, I can't name, but a combatant commander 
described himself or herself as the four-star, but when meeting 
with the U.S. Ambassador, that is the five-star. And when we 
see good bureaucratic alignment inside the U.S. Government in 
programs driven at the country level, I think we tend to see 
greater success.
    Dr. Paul. Thank you. I actually have a third report that 
addresses assessments and evaluation explicitly. I will make 
just a few points from it. I think when we are looking for 
criteria to evaluate success in security cooperation, it 
depends in large part on what we set out to do and how well we 
have specified that. One of the broader recommendations of my 
research and that of others is that objectives be specified in 
a way that is SMART--specific, measurable, achievable, 
relevant, and time-bound--both short-term intermediate 
objectives for individual programs and program years and long-
term objectives and strategies.
    I think Colombia is a very interesting example because part 
of the story of Colombia is how it took time for the security 
cooperation relationship to mature and evolve. There was 
initially a mismatch in objectives. The United States was 
primarily concerned with drugs, the Colombians were primarily 
concerned with international security. And so because of that 
mismatch, there was often ineffective action. But as the 
relationship evolved and especially after 9/11 when our focus 
changed, that relationship became much more effective and the 
security cooperation did as well.
    General Fraser. Thank you, Congressman Wilson.
    I guess I would put mine into three different categories. 
One is strategic patience. And I think security cooperation 
programs require strategic patience. Plan Colombia happened, 
but the United States had been working with the Colombian 
Government and the Colombian Armed Forces for 20 to 30 years 
prior to that, helping build the institutions within Colombia 
to be successful, primarily the military, with some corollary 
in coordination with the Department of State with the police. 
And so when Plan Colombia was put in place, the conditions were 
right in the country to help do that. So strategic patience I 
think is important.
    Commitment also. And at the time that Plan Colombia 
happened, there was a lot of things came together in Colombia. 
And a lot of focus came together in the United States also. And 
we had a common commitment. Although, as Dr. Paul said, I think 
we were misaligned there. And going back to the earlier point 
of authorities, we had a misalignment of authorities. Our 
objectives were counterdrug. And we limited the use of the 
capabilities that we were supporting the Colombians with to 
that mission when there was an intertwined problem within 
Colombia of terrorism as well as counterdrug. And when we 
changed those authorities was when the support of the United 
States really helped make a difference in key areas for the 
support of Colombia.
    But I also think it is important to remember that while 
United States support was very helpful and made a difference, 
it was really the Colombians who won Colombia's struggle.
    Mr. Wilson. Thank you.
    The Chairman. Mr. Smith.
    Mr. Smith. Let me ask two questions. How important is 
development policy to the partner capacity issues that we are 
talking about in building those partnerships? And how can we 
improve the U.S. in terms of our development policy? Of course, 
I think it can be very important. I don't think we have the 
best, most coordinated development structure. But as you have 
gone in these places and tried to build that partner capacity, 
obviously, we have the military training component; we have the 
State Department diplomacy. Whether you are talking about 
Colombia or, as I talked about, the Philippines or the Horn of 
Africa, where does the development piece fit into this building 
partner capacity?
    General Fraser. Congressman, let me start. From my 
standpoint, they have to be very much linked. In many cases, 
when I don't think security cooperation in our security overall 
foreign assistance isn't working well, it is when they are all 
working their own problems and where they see the problems as 
the most need but they don't fit together in the overall 
capacity of where the strategic direction of the country is. 
Colombia, going back to that example, was successful because 
the Colombians actually put together a very coordinated 
strategic plan of how they were going to move from one part of 
the country to another, gain secure locations in one part of 
the country, and then bring in the development programs to help 
secure that area while they maintain the security within the 
country.
    In other parts of the region, and I will use Central 
America as an example, our efforts at times are very 
uncoordinated as they are applied at the tactical level in a 
country. So it is misapplied. And it is not necessarily well 
aligned within those countries. So it is that discussion, I 
think, between all the areas of foreign assistance that we have 
that conversation to really align those projects. And I think 
overall strategy of foreign assistance as it applies to the 
country matters also. And it is applied inconsistently or 
varies by embassy by embassy on how it is applied. So the roles 
of ambassadors are critically important.
    Dr. Paul. I think that how important development policy is 
depends in part on our objectives. But within that, development 
is clearly tied to absorptive capacity, clearly tied to 
ministerial capacity, and clearly tied to the partner nation's 
focus. So to the extent that our objectives rely on those 
things and those things are all correlated with success in 
security cooperation, it becomes important. As to what we can 
do to improve our development policy, that is not my area of 
expertise. So I will defer to the other gentlemen.
    Dr. Reveron. I won't take that last part. But I think your 
question is very good. It also goes to the pace. And so as we 
think about the 3-D approach--defense, development, and 
diplomacy--the pace is very different. And so the example I 
like is the military can build a school pretty quickly. But it 
needs the Department of State to say where the school should be 
built. But it needs AID to train the teachers and provide the 
school supplies. And if we keep going back to the Colombia 
case, we could point out they took a--reclaimed a pretty big 
part of territory held by the FARC [Revolutionary Armed Forces 
of Colombia] relatively quickly, but then that created the 
development challenge because then where the local farmers were 
growing coca and encouraged for crop substitution, there was no 
transportation system for them to get that out--the legitimate 
crops--out. And so that created a problem. And so sometimes 
with the pace, military can go in pretty quickly and maybe 
establish security in months, where development can take 
decades.
    Mr. Smith. As far as how we reform development policy, I 
think the best thing we could do is centralize it. Development 
policy in the U.S. is spread out amongst way too many agencies. 
When you think of USAID as being in charge of development 
policy, but they only control about 14 percent of the 
development dollars that are spent by the U.S., I mean it is a 
patchwork. But that is another discussion.
    Just a quick question about Afghanistan, I thought 
something you said about Colombia was really important, that 
capping the number of troops in Colombia was an important part 
of the success because it made the Colombians aware that we 
would help but it was their fight. And I am just wondering, 
General Fraser, now that you are retired, speak frankly and 
clearly about, you know, this has been a great debate in 
Afghanistan, it was a debate in Iraq too, for that matter, is, 
you know, well, we can't possibly maintain the security 
environment because our troops are better than theirs, you 
know, we need more U.S. troops. And I think every military 
commander's first instinct is to say: Give me another 30,000 
troops, and I can save the situation. When, in fact, I think 
that the opposite tends to be the case. And in Afghanistan, I 
think that is critically important. And though we certainly 
have struggles in Afghanistan, you have seen the military, even 
the police in Afghanistan become much more capable in the last 
several years as we have drawn down.
    Now, it is a balance. You didn't say: Cap Colombia at 50 
troops. There has to be a certain level where we can train and 
meet certain missions. But I am wondering if you could apply 
that logic to Afghanistan and where you see appropriate troop 
levels to be sufficiently supportive, but also to make it clear 
that it is the Afghans' fight.
    General Fraser. I am going to----
    Mr. Smith. Punt?
    General Fraser [continuing]. Give you a little bit of a 
coordinated, because my expertise is not in Afghanistan. So the 
first thing I will tell you is what happened in Colombia has a 
model, but it cannot apply specifically to Afghanistan. It is a 
completely different culture, completely different terrain, has 
differing issues that they are dealing with. So to apply them 
and use that as a comparison I think is unfair.
    Mr. Smith. Understood. But the basic principle of too much 
U.S. presence creates dependency instead of a sustainable 
situation, are you saying that they are so different that that 
doesn't even apply?
    General Fraser. Sir, I think it needs to be applied to the 
situation that you find within Afghanistan. And I am not smart 
enough on that or learned enough to be able to tell you, to 
answer that question.
    Mr. Smith. Dr. Paul.
    Dr. Paul. I would be happy to speak to this because I have 
actually done other research on reaching negotiated 
settlements, which is, I think, optimistically the outcome that 
we are hoping for in Afghanistan at this point.
    Mr. Smith. A piece of it, yes.
    Dr. Paul. Yes. So I think your observation that, making it 
clear that it is the Afghans' fight is absolutely central in 
this. In our research on negotiated settlements, the first step 
of seven steps towards achieving negotiated settlements is the 
perception of stalemate. And stalemate is not just the military 
reality, it is a perception. And as long as the opposition in 
Afghanistan perceives that the U.S. is the reason there is a 
stalemate, then that may slow those perceptions because the 
classic statement from the Afghan perspective is: The Americans 
have all the watches, but we have all the time.
    So the opposition is waiting for the coalition forces to 
withdraw, so they get a chance to fight just the Afghans and 
see how well Afghanistan security forces will fight. If when 
that happens, there is a stalemate, then we are well on the 
path towards settlement.
    Mr. Smith. But we have to get to that point. Okay. Thank 
you, Mr. Chairman. I yield back.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And, gentlemen, thank you for being here and sharing your 
expertise in areas of the world that many of us are not that 
familiar with. And probably Dr. Paul, because of your 
expertise, I will start with you. Many of us in the Congress 
are very concerned about the continued spending of billions and 
billions and billions of dollars and not being able to show the 
taxpayer--I am talking about Afghanistan now--how they are 
benefiting or how we are helping to improve the life, if you 
will, of people in Afghanistan.
    An article on January 29, 2014, and the title is this, 
``U.S. Literacy Program for Afghan Military Comes Up Short.'' 
These are comments from John Sopko. I will be very brief. But 
as of February 2013, roughly half the Afghan forces were still 
illiterate, despite the Pentagon's expenditures of hundreds of 
millions of dollars on a literacy program there, according to 
the Special Inspector General for Afghan Reconstruction John 
Sopko, an independent auditor.
    One other sentence: Moreover, the United States military's 
stated goal of 100 percent of first grade literacy for the 
entire force by December 31, 2014, is probably unattainable. 
Now, the reason I wanted to ask this question because we have 
in our military, most, if not all, that go into the military 
are high school graduates. Okay. Then if we are trying to build 
the Afghan security forces--we have been there for 14 years I 
believe, and we are going to be there another 8 years. That is 
22 years. What level in 22 years would you anticipate we could 
get that Afghan who maybe is not even at the first grade level 
now, what would you, what would be your projections as to where 
he or she might be in 22 years? I mean, this is where General 
Fraser was saying declining budgets; they are declining left 
and right quickly.
    We are going to raise the debt ceiling in just a few days 
and spend more and more money over in foreign countries that we 
can't even account for. And this is what is frustrating to the 
American people. And, quite frankly, that is why Donald Trump 
is getting these big crowds. So, Dr. Paul--and one of my 
dearest friends, by the way, is Ron Paul. I don't know if you 
all are kin or not, but he is one of my dearest friends. Would 
you respond to this concern about trying to train people to be 
able to fight and carry weapons and to do the things that need 
to be done to build a security force when they can't read at 
the first grade level? And it doesn't seem to be making a heck 
of a lot of progress. Please share your thoughts with me on 
that.
    Dr. Paul. That is a great question, sir. And I have a lot 
of relevant thoughts, so please be patient with me. First, the 
kernel of that latter issue is about absorptive capacity. And 
that is a really rough baseline, to take Afghan provincial 
tribesmen who have very low baseline literacy and any kind of 
education. So what your goals are has to align to that. Is it 
feasible? Is it really necessary to achieve desired end states? 
How many people do you really need to educate to what level? 
Let's look at the history of Afghanistan. A lot of Afghans have 
been fighting very effectively for a very long time without 
being literate. So some of that is a product of mirror imaging, 
that if we imagine that we want them to have conventional, 
mature, professional forces like our own, that, of course, to 
have a force like the United States' force, you need a high 
level of baseline literacy. That probably isn't feasible in 
Afghanistan.
    But, sir, your broader question about what do we tell the 
American people, how do we account for the money spent, and 
what we have to show for it, that is fundamentally an 
assessment and evaluation question. And if we were doing more 
and better assessment and evaluation, we would have something 
to show them. All of this, the subtext to all of this is the 
chain of logic connecting the things that we are doing with how 
we think they are going to work with how that is going to get 
to our end states. And a well designed assessment framework 
considers the whole progress along that path, from the SMART 
objectives at the end, from the SMART intermediate objectives 
that lead and connect those paths.
    Assessment and evaluation can be used to ask questions when 
you are planning operations and efforts, formative research: 
How is what I am planning to do likely to turn out? Assessment 
and evaluation can be asked of efforts in process: How is this 
effort going? Am I delivering the products and services and 
training that I planned to? How is that going?
    And then, of course, assessment at the back end, when you 
are done with an effort: How well did it go? Was attendance at 
the level that was expected? Did the number of trainees that 
actually passed the course reach our target or not? So that as 
you continue to move on, you can revise and improve. So 
assessment supports planning. It supports process improvement. 
And it enables accountability.
    Mr. Jones. Thank you, Mr. Chairman.
    The Chairman. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    And thank you to all of you for being here.
    Nice to see you, General Fraser, as well. Yesterday, we met 
with the Congressional Research Service. And I think some of 
the folks are here now. And in some ways this follows with my 
colleague's question and adds to, one of my questions has 
always been, you know, what about State Department capacity? Do 
they have the capacity that is needed to do what needs to be 
done essentially? And one of the issues that was raised 
yesterday, which has been, I have heard this ever since I have 
practically been here after 9/11, is that the State Department 
doesn't have a bench, a wide enough bench, a deep enough bench, 
as does the military, to provide people to be together in an 
initial planning. And I think some of the questions raised by, 
you know, the answer just now are, what skill sets are needed 
to assess these things? Do people need to be embedded in a 
situation in order to really truly evaluate what is happening 
rather than always being brought in at the end?
    We obviously have a budget problem. And this committee is 
not charged with having to budget the State Department. But at 
the same time, this is just such a recurring theme. How do we 
get our hands around this? Is that the problem? Or do you think 
they do have the capacity and that maybe it is within other 
departments, it is not just the State Department and the 
military, it is Commerce, it is Treasury, it is a whole host of 
things?
    General Fraser. Well, good to see you again, Congresswoman 
Davis. Thank you. From my standpoint, the State Department is 
not resourced well enough. And if you look across the board at 
our foreign assistance, depending on what we want that foreign 
assistance to accomplish, we have to resource it accordingly. 
And that goes not just to the State Department, but that goes 
to many of the other agencies who provide foreign assistance 
throughout countries. If I look back at General Kelly's last 
posture statement from SOUTHCOM, his comment was he couldn't do 
what he is doing without the teamwork of everybody else in the 
Federal Government who is working this. So I think this 
overall, as the NDAA this year has put in a requirement for the 
Department of Defense to come back and give a strategy on 
security cooperation, I think there needs to be--the Congress 
would be well served by bringing multiple committees together 
and developing a strategy of foreign assistance.
    Mrs. Davis. Foreign assistance strategy particularly, yes.
    Dr. Paul. I would concur. The State Department's role is 
absolutely critical. And the State Department is woefully 
undermanned. I routinely point out to colleagues in the 
Department of Defense and in the military services that the 
Department of State has fewer than 1,000 deployable officer 
equivalents. And that kind of helps them understand the manning 
mismatch.
    Mrs. Davis. Did you want to comment?
    Dr. Reveron. I think it works, all this works best when 
there is great cooperation. And State doesn't seem to have the 
personnel to be able to do this. But the cooperation is 
essential.
    Mrs. Davis. Are there instances where you could see the 
need to have more professional skill sets available to do these 
evaluations and assessment? I mean, where do we look for that? 
I know that we have people who have gained some expertise in 
this area. But to what extent are they really activated in 
these areas today? And what would you change?
    Dr. Paul. Evaluation isn't as hard as we often think it is. 
So if we provided more personnel with some basic evaluation 
training, they could do a better job. One of the big threats to 
effective evaluation is continuity. And often we see situations 
because of rotations both on the military and on the civilian 
side that some evaluation or assessment framework is in place, 
but then the next person on the job recognizes some 
deficiencies in that framework and starts a new one. So we need 
to inculcate a culture that says even mediocre evaluation done 
consistently is better than starting the baseline and starting 
evaluation over and over again. But there is certainly 
opportunity to bring in civilian experts and to identify 
positions both in defense and on the civilian side specifically 
for assessment and evaluation with possible considerable 
benefits.
    Mrs. Davis. General.
    General Fraser. Ma'am, I would just add one other thing. 
And that is with declining budgets, I think we have to focus 
very much on where we want foreign assistance to be successful 
and why. But that doesn't mean that there shouldn't be 
cooperation efforts undertaken with a bunch of different 
countries because I think maintaining relationships is an 
important outcome of security cooperation and foreign 
assistance.
    Mrs. Davis. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Scott.
    Mr. Scott. Thank you, Mr. Chairman.
    General Fraser, your last comment with declining budgets, 
we have to figure out where and why, I appreciate that. And 
that is something that has been one of my big concerns since I 
have been on this committee and watching the funding for the 
U.S. military and the number of men and women in uniform. And I 
look at the world and Africa's 50-plus countries with a billion 
people. We are talking about Latin America today; 20 or better 
countries with 600 million in population. And it certainly 
seems to me like we get more bang for our buck, if you will, in 
the Latin American and Central American countries with our 
partnerships there.
    So to me, building that partnership capacity is the key to 
the U.S.'s ability to influence things in the right direction. 
And certainly you have been a big part of that. How would you 
rate the progress we have made in building partnership capacity 
in Latin America? And where do you think we can best spend our 
dollars to improve those partnership capabilities?
    General Fraser. Congressman, thank you for that question. I 
would say that it has been episodic. At some points, we have 
success when we continue and, as you heard earlier, when those 
efforts are sustained. But they need to be focused. They need 
to be sustained. They need to have clear objectives that can 
happen in 3 to 5 years. And I would argue that is not the long-
term objective, that is a stepping stone to a long-term 
objective.
    So in support of Latin America, what happened in Colombia, 
which everybody uses as an example, took a long time to happen. 
But it got very focused. And it was very much a U.S. Government 
effort supporting a Colombian Government effort. Both of them 
working together. And it had strong leadership on both sides of 
that coin. I think that remained a critical part.
    Where should we spend that effort right now within Latin 
America? I think what General Kelly and the State Department is 
doing in focusing on the northern tier of Central America is 
the right place to continue to focus our efforts. But we need 
to maintain those relationships with other parts of the region 
as well.
    Mr. Scott. Schools like WHINSEC [Western Hemisphere 
Institute for Security Cooperation], Western Hemisphere School 
for Security Cooperation, that helps build those military 
relationships with the future military leaders or current 
military leaders, really, of these other countries seems to be 
a cost-effective model. Is that something that we could extend 
to other regions of the world? Or is that a scenario under 
which cultural differences would create problems?
    General Fraser. No, sir. I think we, in many cases, I think 
we already have those schools in many places. There are 
different names. For example, in Hawaii, the Pacific Command 
has the Asia Pacific Center for Strategic Studies, similar 
school, similar types of programs focused in the same areas. So 
I think a lot of those schools are already in existence. The 
real focus, from my standpoint, is they need to be continued to 
be funded.
    Mr. Scott. Are we bringing those men and women from other 
countries to the U.S. to train them at those schools as we do 
at WHINSEC?
    General Fraser. The Asia Pacific Center for Security 
Studies is in Hawaii. It is in Honolulu. I can't answer for the 
other combatant commands.
    Mr. Scott. That is great. Thank you. I was not aware of 
that. It might be a good place for a CODEL [congressional 
delegation].
    Mr. Chairman, I would yield the remainder of my time.
    Gentlemen, thank you for your service to our country.
    The Chairman. Mr. Cooper.
    Mr. Cooper. Thank you, Mr. Chairman.
    I am worried that two topics have not been explored. One is 
the very nature of security cooperation, it is usually way more 
lucrative for the receiving nation. That is where the big money 
is, right? And I don't want to exaggerate that, but we have 
already heard some discussion of how meager State Department 
resources are. And General Fraser mentioned that one general 
with four stars was kind enough to refer to the ambassador as 
being the five-star. That five-star ambassador had no 
transportation, no bank account, no resources. So it sounds 
more like brown-nosing than a genuine compliment.
    So to what extent in your analysis--and I know it is 
difficult to generalize and we should be country specific--we 
should be implementation plan specific, but, in general, 
security cooperation is almost a host country stimulus program 
compared to what the State Department can offer, right?
    Dr. Reveron. Sir, I would say it is a part of it. Promoting 
international security, I think, is a key dimension of U.S. 
foreign policy. The partner certainly benefits. I think 
benefits have come back to the United States. I like the 
current--there is currently three maritime coalitions operating 
out of Bahrain. Not one is led by an American anymore. But the 
United States provides that backbone and lets three countries 
lead these efforts. And I think we benefit in that perspective. 
The other example that I like is when I was in Afghanistan, we 
had Mongolians guarding our base. And so we felt, we were able 
to gain that benefit. And we also didn't need 200 U.S. soldiers 
to guard our base because the Mongolians----
    Mr. Cooper. I don't think you are really getting my point. 
The scale of the resources offered, whether in cash or in kind, 
are just amazing, like it was our base, and some others are 
guarding it. It was our flotilla, and some others are leading 
it. But this is amazing. Just transportation around Africa can 
really only be offered by AFRICOM [United States Africa 
Command]. The State Department doesn't have its own fleet of 
planes.
    So just in terms of scale, I think it is important in your 
analysis to emphasize scale. If I were a receiving country, 
hey, I would go where the money was. And we did a lot of this 
in the Cold War era when some countries were almost pretending 
to be leaning communist so they would get more help from us. 
This is, as Walter Jones mentioned, a lot of our constituents 
are worried about foreign aid. And they are particularly 
worried about military aid that really ends up being foreign 
aid and that produces no real result.
    But another aspect of this security cooperation that 
worries me is it tends to be incumbent protection. Because 
almost by definition, you talk to host militaries. You know, 
those are the folks in power. And General Fraser was kind 
enough to acknowledge that this cannot stop political change 
within the country, but sometimes it can certainly inhibit it. 
And money is fungible. And you really don't know where if you 
free up resources in the host nation, where those could be put. 
And some host militaries are so embedded in the economy, like, 
for example, the Egyptian military, it is kind of an amazing 
thing when they own appliance companies in Egypt and divert 
resources that way. And, yet, we are helping them with tactics, 
techniques, and procedures.
    So to me, in your analysis, it would be more accurate--and 
I am not the expert; you all are--if you focused on the quantum 
difference in resources and also the incumbent protection 
nature of this. Almost by definition, you have to go with the 
host nation's incumbent military. And that puts a real bias in 
the process. And we are not even talking about upholding lines 
drawn primarily by the British Empire on the map in many 
regions of the world that have almost nothing to do with 
ethnicity or tribe or current conditions. As I have stated many 
times before, we are almost executors of the British estate 
here as we, unthinkingly, enforce those lines on maps. Maybe 
they make sense. Maybe they don't. But we just seem to 
automatically pump big dollars into incumbent governments, and 
we call it security assistance. And that does relieve us often 
of the obligation of putting U.S. troops in more directly. And 
we want friendships and partnerships. But sometimes we care 
more about these nations than even their host governments. To 
what extent do we monitor kleptocracy?
    General Fraser. Congressman, let me attempt to answer a 
little bit, and that is--but I am going to talk specifically 
from a military perspective, not from a political perspective 
because we are supporting those militaries, if you will, that 
are in existence. From supporting the incumbents, at least from 
a military perspective, my experience has been is it has not 
protected the military leadership. I have seen lots of military 
leadership changed. And there hasn't been a change in that 
country. And there hasn't been a change within that military.
    From a political standpoint, I think it varies country by 
country what impact that may or may not have.
    Speaking from a military standpoint with some of my 
counterparts, they would come to the United States looking for 
assistance that they were either unable to or unwilling to go 
to their own government to seek for assistance. So that is one 
that we have to always be watchful for and understand when it 
is happening. And one of the things, from a military 
standpoint, and I would argue from a U.S. in a lot of cases, we 
tend to mirror image our perspective on other governments and 
other cultures. We need to do a better job of understanding 
what is important within that culture and what means something 
as we develop these programs.
    Mr. Cooper. I agree, General, we should never mirror image.
    When I was last in Bogota, I asked where the wealthy part 
of town was, and I was told by our folks that, ``Oh, the 
wealthiest Colombians, they all live in New York and Miami.'' 
You know, what is going on here? You know, they have to care as 
much about their country as we do.
    General Fraser. Again, I don't want to speak for the 
Colombians, Congressman, but I would argue that if you look 
back over the last 15 years, Colombians have owned their 
problem. The Colombians instigated a war tax. That tax was 
focused on the wealthy. The wealthy stood behind it, and that 
is a large measure of why the Colombians have been successful, 
is because they paid for it.
    The United States has encouraged other countries within 
Central America to follow that model to finance the needs for 
their own security.
    Mr. Cooper. General, my information may be dated, but when 
I visited Colombia, it had the highest income inequality in the 
world.
    General Fraser. Yes, sir, it still does.
    The Chairman. Mr. Nugent.
    Mr. Nugent. Thank you, Mr. Chairman.
    I want to thank this panel for being here today. I am sorry 
I missed your opening remarks, but I had another committee 
assignment that I had to take.
    You know what is striking, though--I was in Afghanistan in 
2011 and with a bunch of Marines. And we went to a location 
that they took back from those that were fighting us in 
Afghanistan; rebuilt the school, not like the schools that we 
know of. Obviously, you have been there. What was striking is 
the Marines at the time were paying the headmaster to teach. I 
mean, they were paying his salary. But what changed was, you 
know, as we wanted to get out of Afghanistan, we were pushing 
more of it on the central government to take care of that 
particular issue, even though it was our foreign dollars, our 
foreign aid going to do that. But the headmaster wasn't getting 
paid, you know, for months at a time at that point. And he 
risked his life. The school was burned down. He was chased; 
risked his life to come back to train the Afghani 
schoolchildren, girls and boys for the first time. But when I 
asked the State Department, you know, what are we doing on 
checks and balances--I mean, you were out here, why wouldn't we 
make sure this guy gets paid? If the Marines were paying them 
at one point in time, and now we are giving money directly to 
the central government, and we know it is not getting to him--I 
guess what I am hearing from you is that they were 
underresourced to do it, but it was a real flippant response 
from the State Department in regards to, ``Well, that is not 
our problem.'' But it is our dollars.
    And so I guess in our rush sometimes to leave a country--
and I get it, I have three kids in the Army that have been to 
those great places, like Afghanistan and Iraq--but if we are 
putting our dollars there in foreign aid, how do we make sure 
that those dollars are being spent correctly? I know that is 
really not the discussion here, but it is because, you know, 
the military, General, from your aspect, obviously that was 
important to stabilize a country, but when do we rush into it 
and--when do we draw the line and say, ``Listen, yes, I know we 
want to get this government up and running, but maybe they are 
not ready yet to do it with our dollars''? Do we ever make that 
decision and say, ``Hey, listen, no, we shouldn't do that''? 
Does the State Department ever do that, are you aware of?
    Dr. Reveron. Sir, as it related to CSTC-A [Combined 
Security Transition Command-Afghanistan], the NATO training 
mission, I can explain at least what they tried to do because 
the corruption in Afghanistan is very well documented. There is 
no modern banking system and so at least when it went to--
because U.S. taxpayers pay the salaries of Afghan military and 
police. So what CSTC-A did, I don't know if it is still active, 
but tried to set up an electronic pay system with an ATM card, 
but this is where the illiteracy challenge came in.
    Mr. Nugent. Right.
    Dr. Reveron. As well as do regular census to monitor to 
make sure there weren't kind of ghost cash till, kind of ghost 
muster sheets, to make sure individuals were getting paid who 
actually existed. But many challenges, without a doubt. I think 
in Afghanistan it is probably the hardest problem because the 
civil war devastated society and the economy. And my own 
opinion, without the $4.5 billion or so that the U.S. taxpayers 
provide, the system would collapse.
    Dr. Paul. If I may, I have a couple of thoughts about this 
as well. One of the things I mentioned in my opening remarks 
was the importance of flexibility. Sometimes we, unfortunately, 
encounter a situation where we begin security cooperation with 
a partner; it is authorized and funded; and delivery begins. 
And then some level in the partner hierarchy becomes reticent 
and stops cooperating. And, unfortunately, often the executors 
on the U.S. side don't have the authority to turn the tap on 
and off. And so how do you incentivize a partner to resume 
cooperation when deliveries are still being----
    Mr. Nugent. And I think you probably answered a question I 
didn't really lay out clearly, but you are answering the 
question. Once we get on a track, do we ever reel it back? Do 
we ever, like you say, turn off the tap and say, ``Hold on a 
second, you are not meeting the goals''? And you talk about 
goals and coming in and looking at a program to see if it is 
actually doing what it is supposed to do. That should be one of 
those. I would think it would give the commander on the ground 
a whole lot more responsibility because I know that Marine, the 
Marine major that was there, he was frustrated because it 
didn't seem like anybody was listening to him, and he is out 
there with these guys every day.
    So how do we do that? How do we give them the flexibility 
to turn the tap off?
    Dr. Paul. I am not sure in process exactly what has to 
happen, but I think some of it has to be at the level of 
authorities, and then some of it has to be in the bureaucracy. 
Sometimes that authority is held somewhere in the bureaucracy, 
but the major on the ground in some province doesn't know who 
to talk to, to make that happen.
    I think there is periodic reviews of these programs, but 
usually that is on an annual or semiannual basis. So, again, a 
push for assessment and increased flexibility in the 
authorities should help because that is a real problem, sir.
    Mr. Nugent. General.
    General Fraser. If I could add in one thing, I think one, 
you have to have clearly defined objectives with very clearly 
defined metrics that you measure and then decide. But I also 
think not only an authorities part to this, but sometimes, at 
least within the Department of Defense, if you give money back 
or you hold money, then somebody else takes it. And so there 
has to be an incentive within the organization that I can make 
smart decisions and I can apply that money to other places 
without a large effort to try and make that happen, that I have 
the flexibility, as Dr. Paul says, to be able to move those 
funds to where they are going to go have the biggest impact and 
I can then--and then I need to be accountable for those 
decisions.
    Mr. Nugent. I thank you, Mr. Chairman, for allowing me a 
little extra time.
    Thank you, and I appreciate your comments.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Thank you, Mr. Chairman, for calling this 
hearing.
    To some degree, you all mentioned the need for enduring 
relationships with partners that are actively looking for our 
cooperation. But you didn't, not one of you, mention one 
example of a successful program that accomplishes this goal. 
And it is the National Guard's State Partnership Program [SPP] 
that does an outstanding job at creating long-term 
relationships with countries and results in increased 
capabilities for the nations that take part. The Guard provides 
unique capacity-building capabilities to combatant commanders 
and U.S. ambassadors via 68 comprehensive partnerships between 
the National Guard units across the United States and, 
gentlemen, 74 partner nations, with more being developed.
    Now this program has been operating for more than 20 years, 
and I will be working to enhance the program. I would like to 
highlight one partnership in particular, the partnership 
between the California National Guard and Ukraine. When 
conflict began in Ukraine, it was that relationship that gave 
us some of our best insight into what was actually happening on 
the ground, thanks to the long-term and often personal 
relationships that had developed. Not only did this put the 
Ukrainian military in a better position to respond, but it also 
gave us access that would have been very difficult to obtain in 
any other way.
    Now my question is, how do you see the National Guard 
contributing to security cooperation in the future? Can any of 
you comment on the value of the State Partnership Program and 
how we can enhance it or other programs that develop these 
long-term relationships?
    Now I realize, gentlemen, that most of our security 
cooperative programs aim to address counterterrorism, so how 
can we shape these programs to be broader in scope like the 
Guard program? And I would like to ask each one of you.
    General Fraser. Ma'am, let me start, if I may. You are 
exactly right, the National Guard programs are critical tools 
for every combatant commander, and they make a big difference. 
One example when I was assigned in Alaska, the Alaska Guard had 
a relationship with Mongolia. When the President of Mongolia 
visited the United States, one of his stops was to visit the 
adjutant general in Alaska before he went back to Mongolia 
because the relationship was as close. So it is a critical 
tool, and we need to continue to use it.
    We also, as well as building capacity, there is a lot of 
effort that goes into training and exercising with partner 
nations. And that is really that relationship that continues to 
grow. So those opportunities where we have to do that I think 
will help build the capacity.
    Where there are opportunities to support their ability to 
do disaster response and to help support disaster response 
training and efforts within differing nations, I think that is 
a real strength that the Guard brings to any relationship that 
we have.
    And then just the overall relationship that they bring into 
our military departments also is beneficial. So, from my 
standpoint, we always look to as much of the Guard's 
participation as they could afford.
    Ms. Bordallo. Dr. Paul.
    Dr. Paul. Thank you. The State Department partnership 
program is a great program, and it is very cost-effective 
because it doesn't require that much additional resourcing with 
potentially modest payouts. And I think that is a kind of 
program that often gets overlooked or can be in danger in times 
of austerity, a program that doesn't cost a great deal but 
doesn't have gigantic payouts. Many of the payouts are fairly 
modest but important, especially in long-term relationships. 
And that is something that as we think about assessment, that 
we have to keep in mind. Every mission has a primary mission 
that should be spelled out very clearly, but there may be other 
forms of ancillary benefit. So usually the primary mission of a 
National Guard engagement is to do some kind of building 
partner capacity exercise or some kind of interoperability 
exercise. But the ancillary benefit is the relationship. And 
those relationships can be hugely important, like the instance 
you mention with Ukraine and in other countries where there is 
turmoil. And someone from the United States who is still in 
uniform can call up someone in the partner nation who is still 
in uniform and ask what is going on and open a dialogue that 
way.
    Ms. Bordallo. Dr. Reveron.
    Dr. Reveron. Thank you very much for the question. It is a 
brilliant insight because I think security cooperation really 
works best building these long-term relationships, and the 
Guard is really suited for that because members of the Guard 
don't rotate as frequently as they do on Active Duty. And so if 
you are in the California Guard, you tend to stay in the 
California Guard, and you can keep going back to that country 
year after year after and all the different positions. So I 
think the SPP, you are absolutely right, ma'am, it is a 
fantastic program to develop these relationship.
    Ms. Bordallo. Well, I thank you very much for your comments 
to my question. I just wish it were mentioned in your opening 
statements. Thank you.
    I yield back.
    The Chairman. Ms. Stefanik.
    Ms. Stefanik. Thank you, Mr. Chairman.
    And thank you to the witnesses for your testimony today.
    Members of this committee understand that security 
cooperation has long been a component of our national security 
strategy, and it has become more of a central figure over the 
last decade.
    My question is a broad one, but I wanted to get each of you 
on the record. Can security cooperation be a substitute for 
U.S. forces? And the reason I am asking that question is I am 
concerned that some may assume that security cooperation can 
replace U.S. forces as a justification for the further 
drawdown. So I would like you to each comment on whether it can 
be a substitute.
    I will start with you, General Fraser.
    General Fraser. I would tell you that a lot of our security 
cooperation programs exist today because of the size of our 
force, and that it is an ancillary part to our ability to train 
and exercise and provide capacity and work with other 
countries. A drawdown in the size of our forces would mean that 
we have less opportunity to train with our partners because we 
would be focused on maintaining our own readiness and we would 
have fewer, smaller capacity to be able to do that.
    Ms. Stefanik. Dr. Paul.
    Dr. Paul. I think the idea of security cooperation is to 
lighten the load on our military forces and to decrease the 
frequency with which we have to deploy them in order to help 
other countries and other parts of the world help themselves. 
With that said, I don't think there is any danger of disbanding 
the Marine Corps in favor of the Peace Corps.
    Ms. Stefanik. So just to get it on record, security 
cooperation is not a substitute for U.S. forces?
    Dr. Paul. Correct.
    Dr. Reveron. No, and I would add, in fact, it probably 
enhances U.S. power in general. And so, for example, we are 
very concerned with civil war in Somalia, don't want to put 
U.S. boots on the ground in Somalia. But by training and 
equipping Ethiopians, Kenyans, Burundians, and others, they can 
provide that force and then the U.S. incurs that benefit of 
stability, an attempt of stability in Somalia.
    Ms. Stefanik. Thank you.
    I yield back.
    The Chairman. Ms. Speier.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you to the panelists.
    Dr. Paul, you said in your comments and I paraphrase them, 
we can't want it more than they want it. And in some respects, 
I think we suffer from superimposing what we believe they want 
or convincing the leadership that it is what they want when it 
is not what the people want. The revelation that in Syria, 
after all the money we spent, $500 million, we have four or 
five individuals who have been trained and equipped, is more 
than an embarrassment. And had that not become public at a 
Senate hearing, I think we would be moving forward, spending 
more money. How do we put in place some form of governance of 
these efforts so that when they are failing, we just fess up to 
it and pull that plug?
    Dr. Paul. Ma'am, I view that as an assessment question. 
That is part of assessment. I don't know anything more about 
the Syrian program than what has been discussed in the popular 
press. It is not an area of personal expertise, but thinking in 
general about these kinds of efforts, if there was assessment 
in place, clearly when you get to the point of measuring your 
measures of performance--is money being spent on what? What are 
you delivering? Well, we only have five trainees. That has got 
to be a concern, and there has got to be internal revisions to 
the program. There has to be a feedback loop. And then when you 
come to output, the output is the number of trained personnel 
produced, five. That has got to be well below the target, and 
there has to be accountability.
    Ms. Speier. Well, yes, there should be accountability. But 
to just say we are going to put in an assessment tool, 
supposedly we have persons in authority that can make that 
assessment and should be making that assessment without the 
benefit of an assessment tool. I mean----
    Dr. Paul. No, fair enough that one is so clearly and 
obviously not successful that it shouldn't require much of an 
assessment framework, but if there were an assessment framework 
and assessment mindedness in place, that call would get made 
earlier. The whole benefit of assessment is, what can we learn 
from this? Why did this program go awry? How were we allowed to 
spend so much money over so much time without recognizing that 
things could be different? What could be different so that the 
next time we do this, it doesn't happen that way?
    Ms. Speier. General Fraser, with our pivot to the Pacific, 
what or should there be efforts undertaken to improve our 
military relationship with China and create greater 
predictability in the South China Sea?
    General Fraser. I think there is. And there is ongoing 
effort--at least from what I understand, again, from press, 
that there is an ongoing effort on the part of the Pacific 
Command as well as U.S. military to build those relationships. 
But we have to also remember the relationships are two-way 
streets. And so there has to be the same willingness and the 
same openness and the same ability on the part of whomever we 
are building that relationship with. But we find across, at 
least my experience, that the more we are able to understand 
one another--we may not agree with one another--but the more we 
can work and at least know what my counterparts' views are, 
that is important. So, yes, I think we should continue our 
efforts.
    Ms. Speier. Is there anything else you think we should be 
doing that we are not doing?
    General Fraser. I think it is a slow process. It is a step-
by-step process. And we just need to work our way down that 
path. And it is going to take, in my opinion, a long time.
    Ms. Speier. For all of you, are there any examples that you 
can give us of security cooperation in nondefense sectors that 
have been successful?
    Silence is golden, I guess.
    Dr. Reveron. I am not quite sure I completely understand 
the question.
    Ms. Speier. Well, we are providing training and equipping, 
but we are also doing things in other nations that are non-
security-related that you could argue are creating security 
cooperation. Can you point to any of those that are nondefense-
related that have paid back in dividends?
    General Fraser. Ma'am, the one I will use is really focused 
on the Department of Justice, if you will, the Drug Enforcement 
Agency, and a lot of the work that they do within Latin America 
and within counterdrug operations all over.
    I think if you go in and look at some of the international 
narcotics logistics out of the Department of State that also 
fund similar types of programs, those are very helpful, but 
there is a close relationship and I will use the effort, the 
counterdrug effort, within the Caribbean led by JIATF-South 
[Joint Interagency Task Force South]. A lot of the intelligence 
that they get comes out of law enforcement organizations and 
relationships, then it moves into a military sphere if you can 
for an intercept, but once that intercept is taking place, then 
it is law enforcement who is then engaged again so that there 
is a legal procedure that continues from that, and then it goes 
into the court system from there. So that is a lot of different 
agencies who have found the ability to work together, and I 
think that is the real model, as we look at it, is we shouldn't 
try and divorce any of these programs from one another, they 
work best when they work together.
    Ms. Speier. Thank you.
    I yield back.
    The Chairman. Mr. O'Rourke.
    Mr. O'Rourke. Thank you, Mr. Chairman.
    I want to follow up on some questions that have been asked 
about tough decisions that we have to make when our short-term 
security interests or those of our partners conflict with 
longer-term strategic interests or even just the standing of 
the United States in a given part of the world. The example of 
Egypt was used earlier where there is a prohibition on the kind 
of military assistance we would give that regime, the current 
regime, if it is a regime that is in place due to a coup. And 
we have essentially looked the other way because of very real, 
short-term immediate problems. ISIS [Islamic State in Iraq and 
Syria] I think was one of the reasons given for contravening 
that part of U.S. law or policy.
    To move back to this hemisphere, you can use the example of 
Guatemala in the 1950s or Chile in the 1970s, El Salvador, 
Nicaragua in the 1980s to see where that short-term focus has 
caused us long-term problems, and probably more importantly, it 
causes the people in those countries significant suffering and 
long-term harm.
    Tell me, and I will start with General Fraser, your 
thoughts on the administration's recent decision to withhold 15 
percent of Merida funding to Mexico because of human rights 
concerns. I know that is not strictly military aid, but it is 
connected to military aid that we have given that country. Is 
that a step in the right direction to begin to hold regimes 
accountable for things like human rights and their conduct 
using the money that U.S. taxpayers have supplied?
    General Fraser. Congressman, thank you for that question. I 
think that--and there has been a big focus at least in my time 
in Southern Command. I know General Kelly continues it and has 
actually expanded the program on the focus on human rights and 
the importance of militaries sustaining their focus on human 
rights.
    But as you say, there are very hard decisions that have to 
be made as we go through and look at what the results are. So I 
will argue that we need to have a very clear focus there as 
well and determine what we are trying to achieve and measure 
how we are able to do that. It is a situation that will always 
be troublesome as we go through it. I don't know all the 
specifics around the specifics of the Merida, but I know there 
is a lot of focus and effort that the Armed Forces put in to 
vetting organizations with whom they work for with abiding by 
human rights vetting and then supporting those organizations 
that we should.
    And, in fact, the example I will use is during my time in 
Southern Command, we had a problem where one of the countries 
decided to shoot down airplanes. And we had to stop aid going 
in to them very specifically for that reason.
    But on the other side of that, the current militaries, I 
have a hard time if nothing--if they have not had any human 
rights violations in 20 years, that we hold them accountable 
for what happened 20 years ago. There is somewhere in there, 
there has to be a balance.
    Mr. O'Rourke. Yeah. I don't know if other members of the 
panel would like to address this issue of how we balance what 
we stand for to ourselves and much of the rest of the world, 
you know, democracy and freedom and human rights, with some of 
the regimes and nonregime actors that we support who don't help 
us to achieve those things for the people in those countries, 
and does that diminish our standing in those regions and those 
countries, and is it counterproductive ultimately?
    Dr. Paul. It is definitely an issue because, as you have 
highlighted, we often have conflicting objectives. We have a 
short-term objective that is about improving the security 
situation or improving the capability of partner forces. But we 
have long-term objectives that have to do with our national 
values, things about human rights, things about democracy and 
other kinds of issues. So I think we have to recognize that 
sometimes these objectives are in conflict, and there has to be 
some prioritization. From some of the cases I have examined 
over 20-year periods, we find that yes, if there is a 
suspension of the relationship due to human rights violations, 
that does unsurprisingly impair our ability to build partner 
capacity. But, pleasantly, in most of those cases, it has also 
caused the partner to improve their behavior.
    Dr. Reveron. And maybe to add, I share your concern because 
while we might not have a deep appreciation for history, our 
partners certainly do. And we have to be very careful in 
protecting what the United States holds dear. And because we 
have a very nonexclusive list of partners, I really think what 
we need to make sure is that when we inculcate with these 
programs, that we are doing it in accordance with American 
values. And I think the officers that at least I teach 
understand that, and I think programs, like Leahy vetting, 
ensure that we identify that. But there are long-term 
consequences because our history shows we will support a wrong 
side. A U.S. graduate of an IMET [International Military 
Education and Training] program will stage a coup. That 
happens, as you know, sir.
    Mr. O'Rourke. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Let me zoom back out for just a second. It kind of goes 
back to some things that Ms. Stefanik was talking with you all 
about. I mean, my assumption is we can't do everything in the 
world, so we have to have some partners of different 
capabilities. Some are sophisticated like NATO countries; some 
are lesser developed sorts of countries.
    So if you had to give a grade for our security cooperation 
efforts, how are we doing when you look at this range, which is 
us and the Brits and the Australians at one level and, you 
know, a few advisers we are sending to Cameroon on the other--
or wherever--at that level? How are we doing?
    Dr. Paul. I will take a stab, sir. In our study, we looked 
at 29 cases. In 23 of those 29, we evaluated there being some 
level of success in building partner capacity. So if we use a 
conventional American high school grading system, 23 out of 29 
probably comes in the B range?
    The Chairman. Okay. You all agree?
    Dr. Reveron. Yes, sir. I mean, I think one of the things I 
look for is we empower our partners, and so it is everything 
from a country like Japan that not only wants to buy our 
weapons but operate with us but provide us host nation support, 
but also countries like Ethiopia that is willing to deploy into 
Somalia.
    General Fraser. Mr. Chairman, I agree with the B rating. I 
think as you look at--focus it specifically on relationship 
building, I think we are probably in a B-plus, maybe a low A. 
But as you look at it the from a capability standpoint, I would 
argue we are probably down in the C range, maybe a little bit 
lower than that because that is a harder issue to take on. It 
requires a lot more focus and a lot more discipline and a lot 
more patience, if you will, than just the building relationship 
part of this.
    The Chairman. Well, I made note of your comments, General, 
on strategic patience because that is not a quality with which 
we are always associated in this country.
    So let's just think for a second because a lot of attention 
recently has been on our disappointment at the Afghan forces 
not advancing faster, although they have made tremendous 
strides, but disappointment they haven't advanced faster. The 
Iraqis, it didn't work out very well when ISIS confronted them, 
and then, as Ms. Speier was talking about, the Syria thing. 
From those examples of trying to train and equip security 
forces in the Middle East and South Asia, without asking you 
all to be experts on any particular case, do you think there 
are lessons to be learned from those disappointing results?
    Dr. Paul. I can highlight two lessons just off the top of 
my head. First is about whether the glass is half full or the 
glass is half empty. Afghan security forces have made 
remarkable strides from their baseline state. Arguably, Iraqi 
forces made pretty impressive strides from their baseline 
states. The question is then, are they good enough to face the 
threat that they face? And the answer in both cases is 
equivocal.
    The other key issue is about willingness to fight. This is 
an incredibly difficult thing to assess. It is incredibly 
difficult to know how willing to fight a force is until they 
are battle tested.
    The Chairman. Okay.
    Dr. Reveron. If I can add, sir, 100,000 U.S. troops didn't 
defeat the Taliban, so I am not completely surprised that the 
Afghan forces we trained and equipped didn't either, haven't 
either, and struggled as well. Maybe the general lesson for me 
is military cannot solve a political problem. And so unless 
there is a legitimate semi-stable political authority that can 
control a border and actually run a government, efforts to 
reinforce another country's military are going to go have 
limited success.
    The Chairman. Okay.
    General Fraser. Mr. Chairman, what I would say is I think 
there are important lessons that we can take from all three. I 
am not an expert on any one of them. But I will capsulize it in 
that the three areas that we are talking about were all combat 
zones, and they were all security cooperation being conducted 
in combat and in a combat zone. That differs, I would argue, 
from security cooperation programs that we have other places.
    And I would argue that it is much more difficult because 
the security situation is much, much more different. The 
security that the people feel is much different. The 
relationships, the political relationships are much more 
tenuous than they can be in other situations. So I think we 
really need to take a hard look at it from that standpoint and 
not just capture all security cooperation in one bucket.
    The Chairman. Well, and, General, the Congressional 
Research Service were looking at a variety of test cases makes 
that exact point. The thing that we have the hardest time with 
is doing this sort of thing in war zones because, obviously, 
you have a war to fight while you are also building the 
capability. It is just hard. So I appreciate that.
    You all talked a lot today about Colombia. Are there other 
examples of successes that you think deserve our attention? 
Various things I have read mention the Philippines as having 
some success, you know. Are there other examples?
    Dr. Reveron. No. I think my favorite example is really 
South Korea because if you look at it over that 60-year period, 
you see what the country, government, military have really 
become, and it is still very capable. Another example is 
Israel. We don't really discuss Israel as a case of security 
cooperation, but if you look at from a funding perspective, it 
clearly is. And in that case, the U.S. benefits tremendously 
from the relationship because there are common areas of 
technology transfer. And then, on other examples, I would look 
to the peacekeeping programs funded under the Global Peace 
Operations Initiative, in particular, Uganda, Ethiopia, Kenya.
    Dr. Paul. I will toss Jordan onto the pile. This is an 
example of a country where we have invested a great deal with a 
great level of success, so much so that they have become a 
regional center for training peacekeeping forces. So it is a 
pay-it-forward security cooperation model and success in that 
regard.
    General Fraser. The only thing I will add, Mr. Chairman, is 
I think the Philippines is a good example also.
    But I think it is important in this equation also as we 
look at those successes is to put the political dimension into 
this. To just apply a security cooperation program and expect 
it to achieve the results without having a companion political 
effort to get a political decision to follow that same path and 
follow that success were misaligned. And so I think we have to 
follow it in a holistic approach.
    The Chairman. Yeah, no, I agree, and I appreciate all those 
examples. I don't know, it seems to me the challenge is, okay, 
what if you are in a messy place without a strong political 
infrastructure to work with. I am thinking of Mali, for 
example. We spent a fair amount of time trying to develop 
security forces there. It didn't work very well. And so the 
question for us is, do we not engage if there is not a strong 
political infrastructure, you know, with which to work? Do we 
engage with much lower expectations of what can result in it? 
And I don't know the answers. I guess I am literally thinking 
out loud here.
    But I was listening as you all were talking with Mr. Smith 
and others about the importance of development assistance, the 
importance of the political engagement, the inadequacies of the 
State Department, the need for strategic patience. It is true: 
We need to know what works, and then the hard question is, 
okay, if you don't have all of those things, do you engage 
anyway? And, you know, I guess maybe that is a case-by-case 
sort of situation.
    You all don't have to comment on that, but you are welcome 
to if you want.
    Dr. Paul. It seems to me that you have identified the right 
issues, that it is a challenge and that expectation management 
is key. So the decision should be made in each of those 
instances based on the realistic expectations.
    Another observation from some of our research that might be 
relevant is the value of ministerial capacity building, so in a 
situation where you lack a lot of the contextual factors that 
make security cooperation more likely to be successful, some of 
the political support, baseline absorptive capacity. Well, 
investing in ministerial capacity can both help improve future 
absorptive capacity if you have strategic patience and is 
investing in the government, albeit through the defense 
ministry, and can make that more robust.
    In fact, we noted a number of cases where we were able to 
successfully contribute to ministerial capacity building, and 
then, later on, historically later, 6, 7, 8, 10 years, they are 
able to start building actual forces capability.
    The Chairman. Thanks.
    Let me touch on just one, maybe two other things right 
quick, and then I want to yield to Mr. Franks.
    Dr. Paul, in your testimony, you talked about authorities 
and basically said we need more flexibility, that we get kind 
of wrapped around--CRS [Congressional Research Service] says we 
have 80 different authorities in DOD, and that doesn't even 
include State Department authorities--we get wrapped around 
that. What wasn't clear to me from your testimony is how big a 
problem this is. How much of a problem is caused by having all 
of these different complex authorities and signoffs and so 
forth?
    Dr. Paul. I actually think General Fraser may be able to 
speak to this better because of his experience. But I will say 
from what I know, talking to operators, doing interviews, 
looking at the histories, it is a problem in concert with other 
problems. So there is what is described in the community as a 
patchwork of authorities. There are a lot of different 
authorities to do a lot of different things. And if you are an 
experienced and practiced bureaucrat and invest a lot of time 
into it, it is amazing the kinds of things you can pull 
together to get stuff done.
    Unfortunately, we have a rotational culture on both the 
military and the civilian side. So someone who has had a prior 
security cooperation billet and falls in on a very well-
orchestrated set of programs may be able to make that 
transition and go smoothly. But if someone new rotates in and 
has transferred from some other aspect of the service and 
doesn't have any experience there and there isn't a good 
transition folder and there is changing needs in that country, 
they may well be quickly overwhelmed.
    General Fraser. Sir, my perspective is, in a lot of cases, 
I would argue people trying to manage their way through the 
authorities becomes, results in, how are we going to do this to 
get a little bit of something done rather than what we need to 
have done? So they are just trying to help. They are trying to 
align with our partner's requests, but it is very hard when our 
partner says this, but my authority will only let me do a very 
small part of what you are asking to be able to do this. And it 
is all normally the authorities that we get placed on in 
various different places I would argue come from individual 
instances where we need an authority to go do something for 
some limited amount of time, and then they either sustain 
themselves, or they get patchworked in another way.
    My thoughts are for security cooperation to be successful, 
security assistance, we need to have a longer range strategic 
objectivity. Then I am a believer--and then build the 
authorities to help achieve that objective rather than the 
patchwork that I have to manage along with all the other pieces 
to go out and to achieve that goal.
    The Chairman. Well, we talked about lots of things today; 
some of which is in the purview of Congress, and some of which 
is not. This is ours, you know. We can make this better, and I 
am just trying to figure out if it is worth the effort. You 
know, how much of a benefit comes from it I guess I should say.
    Let me yield to Mr. Franks.
    Mr. Franks. Well thank you, Mr. Chairman.
    Thank all of you. I will try to just keep this to one 
general question because I think it goes to the core of what we 
are all talking about, and I am sure you have already touched 
on this substantively prior to that.
    But, I mean, it is a very compelling concept, this building 
partnership capacity, because we are able to kind of lighten 
our load and try to bring in new friends. And there is 
something very compelling about that, but of course, sometimes 
we succeed pretty effectively, like we have with Israel and the 
Iron Dome and missile batteries. Those have been marked 
successes. And then sometimes we don't do as well, like the 
training and equipping program in Syria. And so it seems to me 
that the key here is to ascertain ways that we can make sure 
that those we are dealing with are the right ones that we 
should be dealing with. And I would look to you to tell us, 
what metric do you use to ascertain what you think has been a 
successful effort? And how should Congress measure that in our 
oversight capacity?
    General Fraser, I will start with you. And thank you for 
your service here.
    General Fraser. Thank you, sir. I guess I am struggling a 
little bit with how we put this together. I guess to be 
successful, in my mind, it has to be a two-way street. And a 
lot of times I think we go into this and we have a capability 
we think--and it is in our interest to help build your capacity 
in this way, but that partner may not see it exactly that same 
way. So we have to have a two-way conversation that matches and 
makes our goals match.
    And then I would argue, then we have to stay very focused 
on whether or not we are doing that, through good assessment 
and metrics, but I would also argue, much as we rotate through 
a lot of people, our partners also rotate. And so sometimes 
when one senior leader in a government changes--or in a 
military--changes to another, the successor doesn't always 
agree with the program that was then put in place, but we 
continue that program along. So we have got to have another 
agreement every time leadership changes, I would argue, to help 
us be successful. And then put small goals, achievable goals, 
in a timely timeframe that will then step on, build on one 
another, rather than say that we have got [to] have the whole 
enchilada tomorrow.
    Dr. Paul. Sir, I believe that both of your questions about 
how do we deal with the right partner and how do we assess 
success hinge on objectives and interests. If we are clear 
about what our objectives are and what our interests are, then 
that can allow us to examine a potential partner or a partner 
that we are considering changing our relationship with and see 
whether our objectives align with their objectives so that we 
have shared interests and how much distance there is between 
their baseline condition and where we want them to be and what 
we want them to do to meet our objectives.
    And then, for assessment, how, again, the clarity of our 
objectives and the distance between where you start and where 
you are going to end up because I am aware of a lot of cases 
where security cooperation objectives were met. We dramatically 
improved the capability of a partner, but national security 
objectives were not met because that partner was not, at the 
end of the day, sufficiently robust to deal with whatever the 
threat or the challenge was by himself.
    Mr. Franks. Mr. Chairman, thank you for the opportunity. 
And I yield back right there. Thank you.
    The Chairman. Mr. O'Rourke, do you have further questions?
    Mr. O'Rourke. Yes, I wanted to follow up on a question that 
the ranking member asked about whether it is helpful to put 
some kind of absolute cap or horizon on aid to reduce the risk 
of a moral hazard. In other words, we don't want the partner 
country to think that U.S. assistance is going to be there no 
matter because then they will fail to develop the capacity and 
capabilities necessary for them to be able to take on their 
challenges without U.S. aid in the future.
    Is that in fact the right approach? And Colombia was 
mentioned as an example. But are there examples where we set 
some kind of fixed amount of U.S. intervention or aid or a date 
certain that has been effective?
    Dr. Reveron. You are absolutely right. I mean, there is a 
moral hazard in all of these. And an easy example, you look at 
NATO spending, NATO sets the target of 2 percent of GDP [gross 
domestic product] on defense. I think it is only 4 of the 28 
make it.
    Mr. O'Rourke. Right.
    Dr. Reveron. And there is that tendency.
    Mr. O'Rourke. They know the United States will be there.
    Dr. Reveron. Absolutely, but I would also say, too, I am 
concerned if we get too narrowly focused on achievable 
objectives. Sometimes we give assistance because we gain base 
access. Sometimes we give assistance because we liked, we would 
joke, 50 flags over ISAF [International Security Assistance 
Force] in Kabul. We got legitimacy on that, and even you get a 
little moral upbringing when you saw the Bosnian flag flying 
because 20 years earlier, we were dealing with the ethnic 
conflict in Bosnia. And so I appreciate the concern and the 
question, and I think it is always there. And that is where I 
think really at the U.S. embassy level in those countries 
really have a better feel for it to capture some of this 
subjectivity that is involved in providing these programs.
    Mr. O'Rourke. I think you could argue the other side and 
use Iraq and Afghanistan as examples where you set a fixed 
deadline I think with the intention of forcing that partner 
country to step up and recognize that, at some point, they are 
going to go have to take these issues into their own hands, and 
it seems in Iraq not to have worked certainly. And in 
Afghanistan, the President has changed course and recommitted 
the current force size until conditions on the ground change. 
So would you argue that it is a case-by-case, condition-by-
condition issue and that it is not helpful then to set a 
deadline? Or is there some other way to resolve the potential 
for a moral hazard and perpetual U.S. presence?
    General Fraser. My answer directly is it depends. I just 
don't think there is one standard that fits every situation. 
And I would argue that when you get into security cooperation, 
when you get into especially combat zones, those are morally 
hazardous zones. And there is no way, whether a number of 
troops or a standard or anything like that will avoid the fact 
that there are going to be some conflicts there. And so, from 
my standpoint, we need to realize that. We need to accept that, 
and then we need to understand where interests and those moral 
hazards come in conflict with one another and make very clear 
decisions on which way we need to go, but bottom line to it is 
it depends.
    Dr. Paul. I will echo and agree with it depends, but it 
should be a consideration as we are laying out our investment 
and our plan for engagement in a country. As I said earlier, 
you can't want it more than they do. And if you are in a 
situation where there is moral hazard, where there is some 
danger of us wanting it more than they do, then it is critical 
that we identify the right levers in order to retain some kind 
leverage over the partner so that we can influence them, so we 
can say: Well, you need to achieve this benchmark by this date, 
or there will be a consequence. And then we need to be willing 
to put those consequences in place, whether specific drawdowns 
of forces or changing the resource allocation or things like 
that.
    Mr. O'Rourke. Yeah. I think because this is so hard and the 
consequences are so significant, I am looking for some certain 
rules of the road, kind of like we have on the military 
intervention side, the Powell Doctrine, these eight 
preconditions must exist before you commit U.S. forces--I think 
you are saying that it is not going to be that easy and you 
cannot simplify it to that degree. And it is going to be on a 
condition-by-condition basis. Although I think you have given 
us some really important principles, like you can't solve a 
political problem militarily. And you have mentioned the need 
to resource and staff the State Department side of this so you 
have the corresponding diplomatic and political aspect covered. 
And I think that is helpful. So if, you know, we look forward 
to anything additional you can point me and other members 
towards that would help us to make better decisions as a 
country going forward. Thank you very much.
    General Fraser. Mr. Chairman, if I could just add one thing 
here. I think the real focus as you talk about this--because we 
are really talking about moral judgment, and we are talking 
about individuals having moral judgment in horrific 
circumstances--education is the focus. We have to build the 
capacity of military personnel on both sides, whoever we are 
working with, to be able to have that moral judgment that will 
meet international standards. And absent that, then it is a 
crap shoot.
    Mr. O'Rourke. Thank you.
    The Chairman. I want to get to that in just a second.
    Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman.
    It really goes along with this, but sort of the leverage 
that we have and whether we use it or we don't, the 
conditionality, I think these are things that the public 
responds to. And often I hear from people that feel like, you 
know, we don't use it when we should. The example in Mexico 
recently is one; obviously Pakistan, another where the Congress 
has weighed in. And, you know, we are probably out of time now, 
but I am just trying to wade through that, sometimes muck, is 
really difficult. And, General, maybe you have had an example 
of where you wanted to use it, weren't able to use it. What was 
at stake there? What was occurring?
    General Fraser. A lot of the zone, the same topics we are 
talking about are combat zones, but there have been examples 
where--and I will just air my frustration. We have had very 
strict rules on what we can and can't do with certain armed 
forces, and those are valid. But my concern has been to put a 
benchmark on what that means and what that means for current 
day leaders via something that happened in the past. And when 
is good enough good enough? Because, in some cases, good 
enough--a government took seriously what we were talking about. 
They made positive steps, and we changed the conditions. That 
shouldn't stand either. So we have to do some of our own 
understanding of what do we really want, what do we really 
expect as you look at, in combination with our other interests, 
as that understanding and conditionality, if you will, needs to 
be there, but it has to be put in a bigger context and not just 
something as a whole, from my standpoint.
    The Chairman. Dr. Wenstrup.
    Dr. Wenstrup. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here today.
    Obviously, in every situation, it is going to be different. 
And, you know, we are going to set an objective, and then we 
have to look at the pieces on the chessboard, if you will. 
Where is this country now? For example, in Iraq, should we have 
kept the military in place and started from there? Those types 
of discussions probably should take place long before we act 
and intervene and get in place. And I would agree with you 
wholeheartedly: there is a big difference between trying to 
prop up a military in the middle of a war and create a new 
military in the middle of a war, and that is a greater 
challenge.
    One of the things that you mentioned today, a couple 
things: One, it comes down to dollars, will, and politics, I 
think, in a lot of cases, right? And to that point of will, I 
just have one question. I should know the answer to this. In 
Afghanistan today, are they operating under a draft, or are 
they a volunteer military?
    Dr. Reveron. It is an all-volunteer force, sir.
    Dr. Wenstrup. That says a lot to their will, I would say. 
And we do hear more positive things about their will as opposed 
to other places. That is really all I have. Thank you very much 
for being here today.
    The Chairman. Let me just get to one other thing.
    General Fraser, you talked about the rotational culture and 
the need for us to be better trained at training, if it will. 
And so one of the questions I have had is, how do you all 
evaluate our institutions, our organizations, for engaging with 
other countries? There have been suggestions, for example, that 
we need to form different organizations within the military who 
specialize in this. Of course, special forces has always been a 
key capability of theirs, but just give me, if you will, you 
all's evaluation of how well prepared we are for the various 
sorts of things we have been talking about today?
    General Fraser. Congressman, Mr. Chairman, let me start 
with that. In a lot of cases, I think where we are not as 
prepared as I would like to see us is in our understanding of 
whatever culture and whatever military we are working with. I 
just don't think we are very good at that, and even with those 
officers and enlisted personnel that we trained and who are 
embedded and really study those environments, they don't always 
understand the military organizations and what really drives 
some of the military organizations. For example, some of them 
in Latin America, we say, okay, they are just as committed to 
this program as we are. And what we found out in some cases is, 
well, no. In one case, 90 percent of an organization of an army 
was committed to helping private security because they don't 
get very much money from their government for this so this was 
a way for them to help build up the capacity of their armed 
forces. We don't understand that relationship and that 
intricacy a lot of times, so from that standpoint, we need to 
be able to do better than that, but that is an ongoing issue, 
and that is a rotational issue.
    We are always going to have a problem with the expertise 
there because people cap out at a certain level within our 
Armed Forces normally who are in security assistance and 
security cooperation. And they have to have a skill set. To 
just be knowledgeable of another country's culture and how they 
operate when you are trying to build a military capacity, you 
need to have some military expertise also, and you have to 
build that somewhere. That has to happen within our 
organization. But I think what the Marines are doing today with 
designated special-purpose MAGTFs [Marine air-ground task 
forces] on a regional basis. The Army is doing the same thing 
with brigades. The Navy, I would argue, in some cases, 
routinely does that, in a lot of cases, better. I think that is 
a good step in the right direction. And that brings that combat 
expertise in our relationships, and that is valued by our 
partners.
    Dr. Reveron. Mr. Chairman, at the Naval War College, for 
example, our intermediate course for O-3s and O-4s, it is 
regional focused. And so we divide the students by region, and 
then we give them sort of the problem over the term, how do you 
translate national strategy into regional strategy? And that is 
an attempt to kind of get at the broad base. I think, within 
the force, the FAO Program, Foreign Area Officer Program, is 
the gold standard. And then you see these different programs 
that have popped up over time, the AFPAK [Afghanistan-Pakistan] 
Hands, or I think the Navy has the Asia Pacific Hands. And 
those have limited life because we are a global force and you 
never quite know where the next resource is. I would argue then 
for across the entire force more programs that really emphasize 
the study of regions, cultures, and histories. And you see the 
Army, too, that designated their regional aligned force concept 
I think is another way to get at that.
    Dr. Paul. I concur with all of those remarks and note that 
we are really good at training ourselves. We habitually take 
men and women from civilian life and inculcate them into a 
highly effective military and build our own capabilities quite 
well. We are really good at working with partners who are very 
much like us, with our NATO partners. The interoperability 
exercises we do with them are great. Where we struggle is in 
different contexts. We are too vulnerable to mirror imaging, 
and we don't have enough of a mindset of recognizing the kinds 
of things that can be different and how that can impact 
outcomes.
    The Chairman. Okay, well, that is helpful. You know, this 
is a complex area, and yet, as people have said, it is a 
central part of our security. So thank you all for helping to 
enlighten us and think through some of the issues. We may well 
draw on you again in the future. Again, we appreciate your 
testimony.
    And, with that, the hearing stands adjourned.
    [Whereupon, at 12:20 p.m., the committee was adjourned.]



      
=======================================================================




                            A P P E N D I X

                            October 21, 2015
     
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            October 21, 2015

=======================================================================

 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
     

                                      <all>
</pre></body></html>
